 ACQUISITION OF THE COMBAT SURVIVOR EVADER LOCATOR


Report No. D-2001-036                     January 25, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at: www.dodig.osd.mil or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CSEL                  Combat Survivor Evader Locator
DAMA                  Demand Assigned Multiple Access
DII COE               Defense Information Infrastructure Common Operating
                         Environment
SAASM                 Selective Availability Anti-Spoofing Module
                      Office of the Inspector General, DoD
Report No. D-2001-036                                            January 25, 2001
  (Project No. D2000AL-0230)

           Acquisition of the Combat Survivor Evader Locator

                               Executive Summary

Introduction. The Combat Survivor Evader Locator is a communication system that
will allow search and rescue forces to locate, authenticate, and communicate with a
downed or isolated solider, airman, or sailor anywhere in the world via communication
satellites. The Air Force is the lead Service for this joint Service program. The
Combat Survivor Evader Locator consists of an over-the-horizon segment, a user
segment, and a ground segment. The Combat Survivor Evader Locator is scheduled to
meet full operational capability in FY 2003. As of September 15, 2000, the total
estimated developmental cost of the Combat Survivor Evader Locator was $90 million.
The Military Services plan to purchase 45,740 hand-held radios for the user segment of
the system (Army 18,531; Navy 10,648; and Air Force 16,561), at an estimated cost of
$247 million. The estimated procurement cost for all three segments of the Combat
Survivor Evader Locator system is $483 million.

Objectives. The overall objective was to evaluate the acquisition of the Combat
Survivor Evader Locator. We also evaluated the adequacy of management controls
related to the audit objective.

Results. The Combat Survivor Evader Locator Program Management Office had
planned for and managed the design and development of the system well, despite
funding shortfalls. The Air Force had been funding the system through internal Air
Force reprogramming below the threshold that required congressional notification.
During the audit, we had concerns regarding how the Program Management Office
would fund additional interoperability and security requirements and associated
technological challenges. Although the Program Management Office had requested the
research, development, test and evaluation funds needed to address those requirements
and challenges, the funds were not included in the Air Force’s FY 2002 Program
Objective Memorandum. We also were concerned that the Air Force plan to
incrementally purchase its hand-held radio requirements through FY 2038 would not
take advantage of economic order quantities and, more importantly, would not satisfy a
critical mission need in a reasonable timeframe.

Our concerns were resolved when the Director, Program Analysis and Evaluation,
issued a Program Decision Memorandum that directed the Air Force to reprogram
$107.5 million ($9.4 million in research, development, test and evaluation funds and
$98.1 million in procurement funds) to complete the design and development of
Block II Combat Survivor Evader Locator and procure an additional 13,477 hand-held
radios by FY 2005. In response to the Program Decision Memorandum, the Air Force
included an additional $8 million for the Combat Survivor Evader Locator system in the
FY 2002 Budget Estimate Submission and will include the remaining $99.5 million in
the Air Force FY 2003 through FY 2007 Program Objective Memorandum. If
Congress appropriates and authorizes these funds, it will reduce the funding instability
experienced by the Combat Survivor Evader Locator system.

The management controls that we reviewed were effective in that no material
management control weakness was identified. See Appendix A for details on the
management control program.

Management Comments. We provided a draft report on December 12, 2000.
Because this report contains no recommendations, no written comments were required,
and none were received. Therefore, we are publishing this report in final form.




                                           ii
Table of Contents

Executive Summary                                                i


Introduction
     Background                                                 1
     Objectives                                                 2

Finding
     Management of the Combat Survivor Evader Locator Program   3

Appendixes
     A. Audit Process
          Scope and Methodology                                  9
          Management Control Program Review                     10
          Prior Coverage                                        11
     B. Report Distribution                                     12
Background
    Personnel Recovery Needs. Personnel recovery has been a critical element in
    the DoD attempt to fulfill its obligation to protect personnel, prevent
    exploitation of personnel by adversaries, and reduce the potential of captured
    personnel being used as leverage against the United States. In January 1992, the
    Joint Requirements Oversight Council validated a mission area need to address
    the lack of existing command, control, and communications systems capable of
    near real time secure data transmission and geopositioning in support of the
    isolated personnel recovery mission. Subsequently, on January 23, 1992, the
    Joint Requirements Oversight Council validated the mission need statement for
    the Combat Survivor Evader Locator (CSEL) system.

    CSEL System. The CSEL system is a communications system that provides the
    survivor or evader with precision geopositioning and navigation data, two-way
    over-the-horizon secure data communications to search and rescue forces, over-
    the-horizon beacon operation, and line-of-sight voice communications. CSEL
    capabilities will allow rescue forces to receive a message from anywhere in the
    world via over-the-horizon communications satellites. Search and rescue forces
    would then be able to locate, authenticate, and communicate with a downed and
    isolated soldier. The CSEL system would replace PRC-112 and PRC-90
    survival radios.

    The CSEL system is composed of three segments:

           •   an over-the-horizon segment that consists of four worldwide-
               unattended ultrahigh frequency and very high frequency unmanned
               base stations that provide near real time secure messaging and
               geolocation;

           •   a user's segment that consists of a self-locating, multi-function,
               software reprogrammable hand-held radio incorporating the latest
               global positioning system technology; and

           •   a ground segment that consists of software used at the Joint Search
               and Rescue Centers to receive and transmit messages from and to the
               hand-held radio through unmanned base stations.

    CSEL Acquisition Planning. The CSEL is a joint Services Acquisition
    Category III program with the Air Force as the executive agent. The CSEL
    Program Management Office manages the design and development of the CSEL.
    The Commander, Space and Missile Center, Los Angeles Air Force Base,
    El Segundo, California, is the milestone decision authority for the CSEL. The
    contractor for the design and development of the CSEL is the Boeing Company.
    In November 1998, the Chief of Staff for the Air Force restructured the CSEL
    program to address funding concerns and technical challenges.



                                        1
                 Developmental Phases of CSEL. The restructure of the CSEL
     system introduced a phased approach to the fielding of CSEL. The CSEL
     system will be developed and fielded in two blocks. Block I will provide core
     capability to locate, authenticate, and establish communications with downed or
     isolated soldiers. Block I will meet the minimal interoperability requirement to
     achieve system initial operational capability. Block II will achieve full
     compliance with critical interoperability requirements and support full
     operational capability. The CSEL Program Management Office planned to field
     Block I in FY 2002 and Block II in FY 2003.

                 Contracting and Cost of CSEL. The initial estimate for the design
     and development of the CSEL was $30 million. The current estimate to design
     and develop the CSEL is $90 million. The CSEL Program Management Office
     attributed the increase to DoD interoperability and security requirements,
     technical challenges, and unstable funding. The Services plan to purchase
     45,740 hand-held radios for the user segment of the system (Army 18,531;
     Navy 10,648; and Air Force 16,561), at an estimated cost of $247 million. The
     total estimated procurement cost for all segments of the CSEL system is
     $483 million.

Objectives
     The overall objective was to evaluate the acquisition management of the CSEL.
     In addition, we evaluated the management control program related to the
     objective. See Appendix A for a discussion of the audit scope and methodology
     and a review of the management control program.




                                        2
           Management of the Combat Survivor
           Evader Locator Program
           The Combat Survivor Evader Locator Program Management Office had
           planned for and managed the design and development of the system well,
           despite funding shortfalls. The Air Force had been funding the system
           through internal Air Force reprogramming below the threshold that
           required congressional notification. During the audit, we had concerns
           regarding how the Program Management Office would fund
           interoperability and security requirements and associated technological
           challenges. Although the Program Management Office had requested the
           research, development, test and evaluation funds needed to address those
           requirements and challenges, the funds were not included in the Air
           Force’s FY 2002 Program Objective Memorandum. We also were
           concerned that the Air Force plan to incrementally purchase its hand-held
           radio requirements through FY 2038 would not take advantage of
           economic order quantities and, more importantly, would not satisfy a
           critical mission need in a reasonable timeframe.

           Our concerns were resolved when the Director, Program Analysis and
           Evaluation, issued a Program Decision Memorandum that directed the
           Air Force to reprogram $107.5 million ($9.4 million in research,
           development, test and evaluation funds and $98.1 million in procurement
           funds) to complete the design and development of the Block II CSEL and
           procure an additional 13,477 hand-held radios by FY 2005. In response
           to the Program Decision Memorandum, the Air Force included an
           additional $8 million for the CSEL system in the FY 2002 Budget
           Estimate Submission and will include the remaining $99.5 million in the
           Air Force FY 2003 through FY 2007 Program Objective Memorandum.
           If Congress appropriates and authorizes these funds, it will reduce the
           funding instability experienced by the CSEL system.

Overall Management of the CSEL Program
    The CSEL Program Management Office effectively managed the design and
    development of the CSEL system. The CSEL Program Management Office
    appropriately defined CSEL requirements, effectively planned for CSEL
    operational testing, implemented acquisition reform initiatives, and identified
    potentially hazardous materials related to the production and use of the CSEL
    system.

Initial CSEL Funding Method
    Initial research, development, test and evaluation funding for the CSEL was
    obtained by congressional approval of a $13.5 million reprogramming action in
    FY 1996. Subsequent research, development, test and evaluation funding for
    the CSEL system was obtained through internal Air Force reprogramming

                                        3
     below the threshold requiring congressional notification. Congressional
     notification is not required if the internal reprogramming is $4 million or less.
     Because the Air Force continued to fund the CSEL through internal Air Force
     reprogramming, funding levels did not keep pace with increasing costs for
     design and development. The CSEL Program Management Office attributed the
     increased cost for the design and development to DoD and National Security
     Agency requirements and technical challenges experienced in development. In
     addition, the increased costs were attributable to the Air Force being unable to
     purchase the CSEL hand-held radios in economic order quantities.

Interoperability and Security Requirements and Associated
   Technical Challenges
     The CSEL system will satisfy DoD and National Security Agency imposed
     requirements that relate to:

            •   DoD interoperability requirements to ensure that CSEL can
                communicate with other DoD systems and satellites, and

            •   National Security Agency encryption and software signature
                requirements to ensure CSEL is tamper resistant.

     DoD Interoperability Requirements. DoD Directive 4630.5, “Compatibility
     Interoperability, and Integration of Command Control, Communications, and
     Intelligence Systems,” November 12, 1992, establishes policy for compatibility,
     interoperability, and integration of command, control, communications, and
     intelligence systems used in DoD. The DoD Joint Technical Architecture,
     established in August 1996 and updated in March 2000, mandates
     interoperability standards and guidelines for command, control,
     communications, computers, surveillance, and reconnaissance; combat support;
     modeling and simulation; and weapons systems being developed and acquired to
     facilitate joint operations.

     The CSEL Operational Requirements Document, approved in November 1995,
     addressed the interoperability requirements contained in DoD Directive 4630.5.
     After the issuance of the November 1995 CSEL Operational Requirements
     Document, DoD established two additional interoperability requirements: the
     Demand Assigned Multiple Access (DAMA) and the Defense Information
     Infrastructure Common Operating Environment (DII COE). The March 2000
     revision of the CSEL Operational Requirements Document incorporated these
     requirements.

                 Demand Assigned Multiple Access. In July 1996, the Joint Chiefs
     of Staff issued guidance that required all DoD and non-DoD organizations that
     use or planned to use nonprocessing ultrahigh frequency military satellite
     communications to implement the DAMA requirements. The use of DAMA
     optimized the use of satellite capacity by assigning communications links to
     users on a call-by-call basis. Once the CSEL Program Management Office
     received the direction to be DAMA compliant, it requested a waiver from the

                                         4
Joint Chiefs of Staff, stating that DAMA compliance was not feasible for the
CSEL. As an alternative, the Defense Information Systems Agency offered a
DAMA-compatible compromise, which was accepted by the Joint Staff and
passed down to the CSEL as a requirement. In May 1997, the Joint Chiefs of
Staff granted a waiver allowing the CSEL system to be DAMA compatible.

           Defense Information Infrastructure Common Operating
Environment. In May 1997, The Assistant Secretary of Defense (Command,
Control, Communications and Intelligence) directed that all new command,
control, communication, computer, and intelligence systems achieve DII COE
interoperability compliance. DII COE is a series of specifications and standards
that provide the common foundation for building interoperable DoD systems.
Because the CSEL system was using the DoD Global Command and Control
System, it needed to meet DII COE interoperability compliance requirements.
Revised National Security Agency Encryption and Software Signature
Requirements. In June 1996, the National Security Agency reviewed the
security requirements for CSEL and determined that the proposed commercial
encryption approach was not acceptable. The National Security Agency
recommended that CSEL use the Selective Availability Anti-Spoofing Module
(SAASM), the next generation security application for global positioning system
users. SAASM provides a layered approach to the protection of information,
including tamper-resistant coating to prevent access to classified data.

Technical Challenges in Implementing Requirements. The CSEL Program
Management Office encountered technical challenges in implementing the DoD
and National Security Agency requirements. However, the CSEL Program
Management Office identified the technical challenges and developed a plan of
action to resolve them.

            Implementation of DAMA and DII COE. Significant design and
development efforts were required to incorporate DAMA and DII COE
interoperability requirements into the CSEL system. Because the CSEL
requires interoperability with various DoD global command and control
systems, Boeing had to develop software and conduct testing to ensure
interoperability with the various workstations associated with the DoD global
command and control systems. Specifically, the Block II CSEL will incorporate
both DAMA and DII COE into the design of the CSEL system. The Block II
CSEL should meet interoperability capability for full operational capability in
FY 2003. The incorporation of DAMA and DII COE into the CSEL system not
only required significant design and development efforts, but could also increase
the cost of CSEL by about $12 million.

           Implementation of SAASM. The CSEL Program Management
Office also encountered difficulties implementing the SAASM requirement. The
contractor for the SAASM had problems with the coating process, which
damaged components of the CSEL hand-held radio. The CSEL Program
Management Office is working with the contractor to determine the
effectiveness of the process for coating the CSEL components.


                                    5
Air Force Hand-Held Radio Procurement Schedule
    Importance of CSEL System Capabilities. The CSEL system will help ensure
    that downed and isolated personnel are quickly and efficiently rescued. The
    need for the CSEL system became more apparent in May 1995, when Air Force
    Captain Scott O’Grady was downed in Bosnia and isolated for several days.
    Various senior-level DoD officials commented on the importance and priority of
    having the CSEL as soon as possible.

    Air Force Procurement Schedule of CSEL Hand-Held Radios. Due to
    funding constraints, the Air Force planned to purchase its hand-held radio
    requirement for 16,561 hand-held radios, incrementally through FY 2038. The
    Air Force planned to purchase only 1,992 hand-held radios from FY 2001 to
    FY 2007, approximately 285 hand-held radios per year. The Air Force planned
    to purchase the remaining 14,569 hand-held radios over 20 years, from
    FY 2008 through FY 2038. The Air Force continued this purchase plan even
    though senior-level DoD officials had expressed the need and desire to have
    CSEL as soon as possible. The Air Force procurement plan did not take
    advantage of economic order quantities.

    To take advantage of economic order quantities, the Military Services would
    have to purchase 7,000 hand-held radios each year to achieve a unit cost of
    $5,400 (FY 2000 dollars). The Army and Navy planned to have their full
    requirement purchased by FY 2010 and FY 2007, respectively. Based on the
    number that the Army and Navy planned to purchase from FY 2001 to
    FY 2007, the Air Force would have to purchase 11,014 during that period, an
    average of 1,588 per year, to take advantage of the most favorable economic
    order quantity. Had the Air Force continued to plan to purchase its
    requirements through FY 2038, the unit price of the radios to the Military
    Services would have been $9,713, rather than $5,400.

CSEL Funding
    In 1998, the Air Force realized that the design and development cost of the
    CSEL system could no longer be funded by internal Air Force reprogramming
    and submitted a supplemental budget request for $27 million through DoD to
    Congress. Congress subsequently denied the $27 million funding request. The
    Air Force continued to fund the CSEL through internal Air Force
    reprogramming. This funding covered only the Block I design and development,
    which did not include the additional DoD interoperability requirements.

    Efforts to Stabilize CSEL Funding. In an effort to stabilize the funding for
    the CSEL, the CSEL Program Management Office requested that the Air Force
    include CSEL funding in the Air Force FY 2000 through FY 2005 Program
    Objective Memorandum submission; however, the request was denied.

    The CSEL Program Management Office again requested the Air Force include
    CSEL in the Program Objective Memorandum submission for FY 2002 through

                                       6
FY 2007. The Air Force included $32.3 million in procurement funds for the
CSEL in the Program Objective Memorandum for the purchase of hand-held
radios over the next 6 years. However, the Air Force did not include any
research, development, test, and evaluation funding for Block II CSEL. The
CSEL Program Management Office needed an additional $9.4 million in
research, development, test, and evaluation funds to complete the design and
development of Block II CSEL system, which included the interoperability
requirements for the system.

Deputy Under Secretary of Defense, Advance Systems and Concepts,
Involvement. In response to the Air Force FY 2002 through FY 2007 Program
Objective Memorandum submission, the Deputy Under Secretary of Defense,
Advanced Systems and Concepts, prepared an issue paper justifying the need for
an additional $9.4 million in research, development, test, and evaluation funds
to complete the design and development of the Block II CSEL (which includes
the implementation of DAMA and DII COE requirements) and an additional
$98.1 million in procurement funds to support the economic order quantity
production rates for the hand-held radios.

Director, Program Analysis and Evaluation, Involvement. In August 2000,
the Director, Program Analysis and Evaluation, issued a Program Decision
Memorandum that directed the Air Force to reprogram $107.5 million
($9.4 million in research, development, test, and evaluation funds and
$98.1 million in procurement funds) to complete the design and development of
Block II CSEL and procure an additional 13,477 hand-held radios by FY 2005.
The table below provides a breakdown of the original Program Objective
Memorandum submission for FY 2002 through FY 2007 for CSEL and the
additional funds requested for CSEL.

              FY 2002 through FY 2007 Air Force CSEL Funding

                          Program
                          Objective       Program Decision
   Funding Type          Memorandum      Memorandum Increase       Total

Research,
Development,
Test, and Evaluation        $ 3.4                 $ 9.4            $ 12.8

Procurement                   32.3                 98.1             130.4

 Total                      $35.7                $107.5            $143.2




                                     7
    In response to the Program Decision Memorandum, the Air Force included an
    additional $8 million in research, development, test and evaluation funds for the
    CSEL system in the FY 2002 Budget Estimate Submission. The Air Force will
    include the remaining $99.5 million of the $107.5 million in its FY 2003 through
    FY 2007 Program Objective Memorandum. The inclusion of the additional funds:

           •   corrected the funding shortfall,

           •   improved the CSEL Program Management Office’s ability to
               complete the design and development of Block II CSEL,

           •   ensured the design of the CSEL system will include interoperability
               capabilities, and
           •   allowed procurement of the radios in economic order quantities.

    We commend the Deputy Under Secretary of Defense, Advance Systems and
    Concepts; the Director, Program Analysis and Evaluation; and the CSEL
    Program Management Office’s continued pursuit to obtain the funding levels
    needed to fully and successfully design and develop a CSEL system that meets
    the needs of the DoD search and rescue mission. The additional funding will
    ensure that users will receive a system that fully meets their needs, is
    interoperable with the other DoD systems, and is economically purchased.

Conclusion
    The CSEL Program Management Office planned for and managed the design and
    development of the CSEL well, considering the funding instabilities, added
    interoperability and security requirements, and technological challenges throughout
    the program. Although CSEL was not fully developed, it demonstrated capabilities
    not available in the survival radios currently used by the Military Services. The
    CSEL Program Management Office plans to incorporate all interoperability
    requirements into CSEL, is addressing the technological challenges, and plans to
    test all Operational Requirements Document requirements. The CSEL Program
    Management Office actions should ensure that the Military Services purchase a
    state-of-the-art communication, location, and navigation system that will meet the
    users' needs and provide for efficient and effective joint combat search and rescue
    operations. In addition, the actions taken by the Director, Program Analysis and
    Evaluation, to have the Air Force fund the CSEL system in the FY 2002 Budget
    Estimate Submission and FY 2003 through FY 2007 Program Objective
    Memorandum will reduce the funding instability experienced by the CSEL system
    and allow the CSEL Program Management Office to complete development of the
    Block II CSEL and purchase the hand-held radios in economic order quantities at
    an affordable unit price.




                                        8
Appendix A. Audit Process

Scope and Methodology
    We performed this program audit from June 2000 through November 2000, in
    accordance with standards issued by the Comptroller General of the United
    States, as implemented by the Inspector General, DoD, and included such test of
    management controls as deemed necessary.

    We reviewed program documentation dated from February 1992 through
    October 2000. We used criteria in the DoD Regulation 5000.2-R to perform the
    audit. To accomplish the audit objectives, we took the following steps:

           •   Determined that the users had adequately defined the system's
               requirements.

           •   Determined that the CSEL program adequately defined and planned
               for the meeting of the CSEL interoperability requirements.

           •   Determined that the Air Force had not fully funded the development
               of the Block II phase of the CSEL system, the procurement of the
               required radios, or the logistics support required for the CSEL.

           •   Determined that the operational test of the CSEL system and
               evaluation included all of the system’s operational requirements, as
               defined in the Operational Requirements Document.

           •   Determined that deficiencies identified in the CSEL during the initial
               operational assessment will be tested during the operational test and
               evaluation.

           •   Determined that the CSEL Program Management Office had
               successfully implemented acquisition reform initiatives.

           •   Determined whether the CSEL Program Management Office had
               identified any potentially hazardous material and identified
               workarounds for the material.

           •   Reviewed the management controls related to the audit objectives.

    We did not use computer-processed data to perform this audit. We visited or
    contacted individuals and organizations within DoD. Further details are
    available on request.

    DoD-wide Corporate Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the
    Secretary of the Defense annually establishes DoD-wide corporate level goals,

                                        9
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goals, subordinate performance goals, and
    performance measures:

           •   FY 2001 DoD Corporate Level Goal 2: Prepare now for an
               uncertain future by pursuing a focused modernization effort that
               maintains U.S. qualitative superiority in key warfighting capabilities.
               Transform the force by exploiting the Revolution in Military Affairs,
               and reengineering the Department to achieve a 21st century
               infrastructure. (01-DoD-2)

           •   FY 2001 Subordinate Performance Goal 2.4. Meet combat forces’
               needs smarter and faster, with products and services that work better
               and cost less, by improving the efficiency of DoD acquisition
               processes. (01-DoD-2.4)

           •   FY 2001 Performance Measure 2.4.3: Successful completion of
               system operational test and evaluation events. (01-DoD-2.4.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Weapons System Acquisition high-risk area.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.
    Scope of the Review of the Management Control Program. In accordance
    with DoD Directive 5000.1, “Defense Acquisition,” March 15, 1996 , and DoD
    Regulation 5000.2, Mandatory Procedures for Major Defense Acquisition
    Programs (MDAPs) and Major Automated Information System Acquisition
    Programs (MAIS),” May 11, 1999, acquisition managers are to use program
    cost, schedule, and performance parameters as control objectives to implement
    the requirements of DoD Directive 5010.38. Accordingly, we limited our
    review to management controls directly related to the acquisition management of
    the CSEL.

    In evaluating the management control process, we reviewed the risk-
    management program to determine the level of risk that the officials assigned to
    aspects of the system. We reviewed the FY 1999 Annual Statement of
    Assurance for the Air Force; the FYs 1999 and 2000 Annual Statements of
    Assurance for the Space and Missile Center, and the FYs 1999 and 2000 CSEL
    Program Management Office’s annual management controls self-assessments to


                                        10
    determine whether any weaknesses had been reported relating to the CSEL
    program. The Air Force, the Space and Missile Center, and the CSEL Program
    Management Office did not identify any material weaknesses.

    Adequacy of Management Controls. Management controls relating to the
    overall acquisition management of the CSEL were adequate in that we identified
    no material management control weaknesses.

Prior Coverage
    Air Force Audit Agency Installation Audit Report No. DL099004,
    “Management of Acquisition Logistics Planning, Combat Survivor Evader
    Locator System,” November 19, 1998




                                      11
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Acquisition, Technology, and Logistics)
  Deputy Under Secretary of Defense (Advance Concepts and Systems)
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
  Director, Program Analysis and Evaluation
Assistant Secretary of Defense (Command, Control, Communications and Intelligence)

Department of the Army
Auditor General, Department of the Army
Commander, U.S. Army Communications-Electronic Command

Department of the Navy
Assistant Secretary of the Navy (Research, Development, and Acquisition)
Naval Inspector General
Auditor General, Department of the Navy
Commander, Space and Naval Warfare System Command

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Program Director, NAVISTAR Global Positioning System Joint Program Office
   Program Manager, Combat Survivor Evader Locator

Other Defense Organizations
Defense Contract Management Agency
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, National Security Agency
  Inspector General, National Security Agency




                                         12
Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       13
Audit Team Members
   The Acquisition Management Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report.

     Thomas F. Gimble
     Mary Lu Ugone
     Charles M. Santoni
     Rhonda L. Ragsdale
     James A. Hoyt
     Chelsea D. Pickens
     Yolanda D. Bailey
     Emily G. Richards
     James A. Mink
